No. 19-

 

 

IN THE

Supreme Court of the Anited States

INVERSIONES Y PROCESADORA TROPICAL
INPROTSA, S.A.,

Petitioner,
v.

DEL MONTE INTERNATIONAL GMBH,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,240 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 22, 2019.

 

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
